r

No.

2CH3L31

Supre
us-

mar

in tfie

Supreme Court oftfje UwteS States

- i 2021

PPRceof

^MCLERK

BLANCHE BROWN
Petitioner
v.
UNITED STATES
(Veterans Health Administration)
Respondent
- « ..

On Writ Of Certiorari To The
United States Court Of Appeals
For The Third Circuit
PETITION FOR A WRIT OF CERTIORARI
Blanche Brown, pro se
P.O. Box 266
Atglen, PA 19310
brownablanc@ aol.com

RECEIVED
MAR - 8 2021
OFFICE OF THE CLERK
qiipRFME COURT, US.

I

QUESTIONS PRESENTED
38 USC§ 901 makes the VA Secretary and VA Facility Directors Responsible for Providing
PROTECTION of persons, to include patients, visitors, and employees at VA medical facilities and
on Department Property. Veteran’s Health Administration’s Mission and Mandate, as
codified by 38 USCSSS 501, 901, 1721 as well as the Patient Bill Of Rights (38 CFR
§17.33); Privacy Polices (42 USC 522; 38 CFR 1605); The VA’s Policy Prohibiting
Patient Abuse (38 CFR 17.34) and Mandated Protection Of Vulnerable Persons
((38 CFR 1199)-- ALL create a self-imposed non- delegable and non
discretionary DUTY-upon the VA Agency (VISN network directors and VA
Medical Center facility directors). Specifically. 38 USC§ 901 and VA Security’s
Policv(38 CFR 0730) mandate VA Secretary and VA Facility Directors—to:
PROTECT Beneficiaries; CONTROL conduct of those under VA’s
control and on VA Property; CORRECT dangerous conditions; and
PREVENT harm
Federal Torts Claims Act (28 USC § 1346 and §2671 et seq): is the exclusive remedy
and makes the United States the sole Defendant in any civil action for injury, "caused
by the negligent act or omission of any Gov’t employee (acting within scope of
employment)." -in accordance with Tort Laws of the State where negligence occurred.
Victims Rights Act: 18 USC $3771: Crime Control Act. 42 U.S.C. 10607(c); DOJ Victim
Witness Program. 34 U.S.C. § 20141 AND Victim and Witness Protection Act Provide
Crime victims' right to be reasonably protected from her abusers and require the
District Court to RESTRAIN The Intimidation and Harassment Of Victims And
Witnesses (to Include Plaintiffs).
FRCP Rule 41 Involuntary (Penalty) Dismissal permits Defendant to motion the
court to dismiss an action or claim If the plaintiff fails to prosecute or to comply
with court rules or a court order in an established PATTERN of “dilatory” “conduct.
The 3rd Circuit REQUIRES District Courts considering a Rule 41(b) Penalty
Dismissal motion to correctly apply the 6 -step process ( Six Poulis Factors)XPoulis
v. State Farm Fire & Gas. Co. 1984 )
THEREFORE. QUESTIONS ARE:
1. WHETHER the Magistrate Judge Exceeded his authority (28 USC §636; FRCP 72)
and the District Court Abused Its Discretion and ignored 3rd Circ Rules and
Precedent; and misapplied FRCP 41 (b) Involuntary Dismissal by improperly
Granting Defendant’s strategic motion for Penalty Dismissal of Plaintiffs FTCA
Negligence complaint-for “Failure to Prosecute Claim” ALTHOUGH:
•

Petitioner (a traumatized Cardiac and Heart Surgery Patient) Declined (for
safety and health reasons) to “comply” with Defendant’s late-noticed Demand

ii
that Plaintiff/Petitioner travel long distance (during July heat wave )for
WITNESS TESTIMONY (under pretext of civil case Discovery Rule 54
deposition subpoena, BUT) in the VA’s Internal Agency Administrative
(criminal HIPAA) Investigation of her violent VA PATIENT ABUSERS Absent WITNESS or VICITM PROTECTION from her patient abusers.
•

the CLAIM—“Invasion of Privacy” k tate Tort that the Court “preserved” against
her violent patient abusers--was not a claim that Plaintiff had made

2. WHETHER the Court improperly Denied Plaintiffs Requests for
PROTECTIVE ORDER and Request TO ENJOIN VA facility administrators and
counsel from inciting and facilitating intimidation and foreseeable preemptive and
retaliatory violence by Defendant’s problematic Patient Abusers3. WHETHER the District Court Clerk’s Office triggered REVERSIBLE
FUNDAMENTAL, LEGAL and PROCEDUAL ERRORS when it INCORRECTLY
DESIGNATED and DOCKETED Plaintiffs FTCA (28 USC § 1346 et seq) NOT as a
Federal Employer Liability Negligence complaint against the United States . . .
BUT INSTEAD, the Clerk of Court erroneously DESIGNATED, DOCKETED AND
TREATED the complaint as a ““42 USC 1983 Civil Rights Act: Other”” complaint
against government subdivisions and against Govt’ employees in their individual
capacity pursuant 42 USC §1983 Law:--setting the stage for misapprehension of
Plaintiffs position; improper adjudication; improper presumptions,; misapplication of
Civil Rights Case Law; and erroneous case outcomes.

r

\

Hi

c

PARTIES TO THE PROCEEDINGS
The parties to this proceeding are Petitioners (Plaintiff below) Blanche Brown, US
Military Veteran; and Respondent (Defendant below) United States

/

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED........................

i

PARTIES TO THE PROCEEEDINGS

ui

TABLE OF CONTENTS..............................

iv

INDEX OF APPENDICES .........................

vi

LIST OFAUTHORITIES..............................

Vll

PETITION FOR A WRIT OF CERTIORARI

RELEVANT FEDERAL STATUTES........
STATEMENT OF THE CASE ...............

1
1
1
1
4

A. Preliminary Statement

4

B. Introduction

4

C. Factual Information

6

D. Background Facts Giving Rise To The Civil Action

7

E. The District Court Proceedings

9

F. The Appellate Court Proceedings

18

OPINION AND ORDER BELOW .............
JURISDICTION ..........................................

REASONS WHY CERTIORARI SHOULD BE GRANTED
I. THE CIRCUITS HAVE NOT ADDRESSED FAR-REACHING ISSUES
OF SECURITY AND SAFETY FAILURES
•

20

20

In VA Medical Centers And Other Federal Facilities

•

Unabated Preventable Violence Against And Harm to Patients,
Visitors, Beneficiaries And Employees On Federal Property
II THE APPEALS COURT PANEL’S RULING CONFLICTS WITH This

20

V

20

n THE APPEALS COURT PANEKS RULING CONFLICTS WITH This
Court's Decisions Related.. To Rale 41(b) Penally Involuntary Dismissal

]

i

l
!

HL THE CIRCUITS .RULING CONFLICTS WITH The S'* Circuits Own.
Standard (Six |^|Jfgr,Factors) .And Precedent Regarding Rule 41(b)
Penalty And Involuntary Dismissal*

Tii

IV. NONE OF THE CIRCUITS NOR THIS COURT HAS ADDRESSED
THE ISSUE OF Life Threatening Danger As A Barrier To A Plaintiff s
Ability To Properly “Prosecute Her Claims” And Avoid A. Rale 414bl
Penalty Involuntary Dismissal

23
(
i

V, THE CIRCUITS, HAVE NOT ADDRESSED The Issue of Separation of 25
Powers in the Context of Government Agencies of the Adimnistrativc
Branch using the Judicial process and judicial authority in an active
Civil action as an adjunct platform for conducting an Agency-based
Internal Administrative (HIPAA) Investigation.

CONCLUSION

ftsftrftft* :« *«***« »'* * ft* ft :ft

ft ft..ft »:«:*> ft **>«-»> *!«««:*-* <ft« **.«'**«.** *-ftft * * !ft ft ft :ft ft-ft «>:* « * « :ft :«> « ft'-ft:*:*:*! ft ft.ft ft:*!:* ft ft*Sftft

26 ■

V

b

f-

'

vi
INDEX OF APPENDICES
APPENDIX A US Court of Appeals Decisions, Judgments and Orders
Judgment of US Court of Appeals for 3d Circuit July 30,2020 .........................

App A 1

Entry of Judgment July 30, 2020 ...................................................................

App A

2

Opinion of US Court of Appeals for 3d Circuit July 30,2020 (11 pages) ........

App A

3

Order : Denying Rehearing ...............................................................................

App A

4

App B

1

App B

2

App B

3

APPENDIX B: US District Court of Eastern District of Pennsylvania Opinions,
Judgments and Orders
ORDER: Grant of Defendant Rule 41(b) Penalty Involuntary Dismissal motion
February 21, 2019 ........................................................................ .....................
Memorandum Opinion : Rule 41(b) Penalty Dismissal
‘February 21, 2019 ........................................................
ORDER: Denial of Plaintiff Request for Reconsideration of Final Judgment
March 25. 2019

.............................................................................................

ORDER: Denial of Plaintiff s Request for Reconsideration of Partial Dismissal
July 16. 2018 .....................................................................................................

App B

4

App B

5

App B

6

App B

7

ORDER: Denial of Plaintiff s Motion to Quash Def Subpoena duces tecum
June 29. 2018 ................................................... ..........................................
ORDER: Denying Plaintiff s Motion to Amend her Complaint and make a clearer
statement
May 29. 2018
ORDER: Denying Plaintiffs request for Phone Conference Rule 16 motion
March 20, 2018 ...........................................................................................
ORDER: Denying Plaintiff Request to Restrain Defendant from inciting Violence
from embattled patient-abusing VA employee against Plaintiff Feb 28, 2028 .......

App B

8

App B

9

ORDER : Granting Defendant Rule 12 Dismissal Motion (“in Part”)
Dismissing 14 of Plaintiff s claims and “preserving” Tort of “Invasion of Privacy”
(which Plaintiff did not make) Feb 7. 2018..........................................................
Memorandum Opinion (23 pages) Partial Dismissal (14 out of 15 claims)

App B

10

*

\
V,

J

i

\
\

C

y

r

i

\

r

(
f

/
n
)

\

Writ 1
PETITION FOR A WRIT OF CERTIORARI

Petitioner Blanche Brown, US Military Veteran, respectfully petitions for a Writ of
Certiorari to review the judgment of the United States Court of Appeals for the Third
Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals for the 3rd Circuit. The order of the court of
appeals denying rehearing en banc are unreported. The opinions of the district court is
unreported.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
The judgment of the court of appeals was entered on August 26, 2020. Petition for
rehearing en banc was denied and entered on October 5, 2020
CONSTITUTIONAL PROVISIONS, STATUTES AND POLICIES AT ISSUE
The Due Process Clause of the Fourteenth Amendment: This Court has held
that the liberty “specially protected” by the Due Process Clause includes the right to
BODILY INTEGRITY
Also, the Due Process Clause to the 14th Amendment guarantees the Right To BE
HEARD.
18 U.S.C. § 3771 Justice For All Act. Provides Crime victims' right to be reasonably
protected from her abusers
The Victim and Witness Protection Act of 1982 Created A Federal Civil Cause Of
Action Authorizing A United States District Court To Enjoin Obstruction Of Justice
And To Restrain The "Harassment" Of Crime Victims And Witnesses

Writ 2

38 USC§ 901 Sets Forth The Policies And Responsibilities For Law And Order And
Protection Of Persons on Property Within VA’s Jurisdiction and to PREVENT HARM
Associated Regulations under 38CFR:
•

VA Patient Bill of Rights (38 CFR §17.33) which guarantees Patient SAFETY

•

VA Prohibition against Patient Abuse (38 CFR §17.34):

•

VA Security and Safety Regulation (38 CFR§ 0730) requiring the VA to
PROTECT patients and other visitors AND to PREVENT Harm by those
persons under the VA’s control and those on Government property

5 U.S.C. §552a, Privacy Act applies to any VA records about an individual and
prohibits disclosure of a record about that individual
28 USC §455: Recusal of Judge who give Appearance of Bias
Pertinent parts of The Federal Tort Claims Act are:
• 28 USCS 1346 (b) (1):
[T]he district courts ... shall have exclusive jurisdiction of civil actions on claims
against the United States for personal injury ... caused by the ... wrongful act or
OMISSIONS ... of any employee of the Government while acting within the scope of
his office or employment, under circumstances where the United States, if a private
person, would be liable to the claimant in accordance with the law of the place where
the act... occurred
•

28 USC 2679. Exclusiveness of Remedy.

The remedy against the United States provided by section[ ] 1346 (b) ... of this title
...is exclusive of any other civil action or proceeding for money damages by reason of
the same subject matter against.
42 USC Ch 6 and 38 USC Parts 18a and b (Prohibition against Intimidation
and Retaliation) prohibit Discrimination and Retaliation in Federal Programs (i.e.,
Veterans Health Administration as a Program of Dept of Veterans Affairs).

Writ 3

STATEMENT OF THE CASE
A. Preliminary Statement
Veterans Health Administration (VHA) is responsible for providing a safe
and secure environment for patients, staff and visitors at nearly 170
medical centers.
VA Patient Bill of Rights (38 CFR §17.33 unambiguously guarantees patients
“a right to be treated with dignity in a humane environment that affords them safety
and reasonable protection from harm” WHILE 38 CFR §17.34 Prohibits
PATIENT ABUSE by employees on and Off VA Property.
Concomitantly, Pennsylvania Negligence Laws (Restatement 2nd of Torts §§213.323 and
324A1 impose a general duty upon all persons and agencies who undertake to perform a particular
service not to expose others to risks of injury which are reasonably foreseeable
B. Introduction
This Case arises from Veterans Health Administration May 12, 2014 FAILURES
to Keep her safe upon arrival at her scheduled Medical Appointment-despite
ASSURANCES only days earlier, that she would be safe from her known
PATIENT ABUSERS1- when her Medical Care team persuaded her to not cancel
her appointment—in the face of active harassment, stalking and patient abuse by a
handful of VA Employees with known, documented histories of patient abuse,
assaulting disabled veterans, stalking women employees and beneficiaries, and
workplace violence.

1 Petitioner’s Patient Abusers were KNOWN unlawfully armed and violent convicted felon with known Mental
Illness, and has documented history of stalking and assaulting women veterans and Women employees at VA facilities
and threatening to kill VA employees. Defense counsel was aware of physical threats against Plaintiff on VA premises
in 2014 and threats with firearms in 2014 and Feb 2018.

Writ 4

This petition presents several issues of First Impression not only for this Court, but
also among and between circuits. None have visited the issues of:
1. Security and Safety Failures to Lives and Safety of Thousands of
Employees and Visitors—all of whom are at risk of injury or death on
Government Property by disgruntled employees, and others.
2. Preventable Violence and Unabated Public Safety and Security
Issues in Federal Programs and in FEDERAL FACILITIES2 related to
\

Safety and Protection of Millions of Veterans who receive medical care at 150
VA Medical Centers across the country
3. Violence Against Women: Specifically Violence Against Woman Veterans
4. VA Retaliatory Culture that Fosters and encourages PATIENT ABUSE
and (“WHISTLEBLOWER”) Reprisal against Disabled Veterans; and other
Vulnerable Populations who seek to be free from abuse.
5. Improper Rule 41(b) Involuntary (Penalty) Dismissal against
Plaintiffs who default or “fail to Prosecute” their cases due to extraordinary
barriers and conditions (intimidation, harassment and risks of foreseeable
violence and harm) established by Defendant—as a way of coercing or
forcing Plaintiffs to choose between safety and Default.
6. Reinforcing Systemic Barriers to Access To Justices for marginalized
groups and non-affluent and pro-se litigants
7. Separation of Powers Executive Branch agency’s (VA) improper and
Deceptive UTILIZATION of Judicial Platform, Forum, Processes, Personnel,

2 CONTEXT The Government Accountability Office (GAO), In January 2018, Reported to Congress and Dept of
Homeland Security that Veterans Administration is NOT following security standards—at its hospitals and clinics —although required of all federal facilities—thereby placing Patients and Visitors at Risk.

Writ 5

Authority and resources—and misuse/abuse of COURT RULES to conduct
WITNESS INTERVIEW in the AGENCYS Internal Administrative
Investigations—absent Witness/Victim Protection (BUT under the
pretext of “Discovery” in Petitioner civil case).
The unabated stalking and violence (since 2014) by career patient-abusing VA
employees at Coatesville VA Medical Center ultimately Forced Petitioner/Plaintiff to
TRANSFER, for safety reasons, her Medical Care Out of CVAMC in 2014 even
though (1) she was eligible for timely and appropriate medical care at the closest VA
facility and (2) 38 USCS 901 and VA Security’s Policy(38 CFR 0730) make VA
Secretary and VA Facility Directors responsible for providing PROTECTION of
persons (patients, visitors, and employees) at VA medical facilities and requires VA to
PREVENT harm by persons under VA control and those on VA property.
Stalking and attempted violence on May 12, 2014 occurred
This case also arises from Defendant (through Coatesville VAMC Facility
administrators) FAILURE to PROTECT Petitioner Plaintiffs Patient Records.
This petition further shines the light on seldom-addressed recurring issues of
Veterans Health Administration’s profound systemic failures to Protect Vulnerable
Veterans and their Privacy and the VA’s inability to Prevent Patient Abuse; and
Violence Against Veterans and others by known violent VA employees— as well as the
organizational culture of “Whistleblower” intimidation and retaliation against
veterans who report patient abuse.
C. Factual Information
The VA’s Mission and Mandate, as codified by 38 USC§§§ 501, 901, 1721 as well
as the Patient Bill Of Rights (38 CFR §17.33); Privacy Polices (42 USC 522; 38 CFR

Writ 6

1605) and The VA’s Policy Prohibiting Patient Abuse (38 CFR 17.34) and
mandated protection of vulnerable persons ((38 CFR 1199) create a self-imposed
non- delegable and non discretionary DUTY - -upon the Agency as well as upon
VISN4 director and VA Medical Center facility directors—to:
•

PROTECT Beneficiaries;

•

CONTROL conduct of those under VA’s authority

•

CORRECT dangerous conditions; and

•

PREVENT harm to Persons in the VA’s care and those on VA Property

The Pennsylvania Supreme Court has adopted Restatement 2nd of Torts (i.e., $$213,
323 and 324A) -which impose a general DUTY upon all persons and agencies who
undertake to perform a particular service not to expose others to RISKS OF INJURY
which are reasonably foreseeable and apply to agencies who BREACH their duties to
Protect and Prevent Harm.
D. Background Facts Giving Rise To The Civil Action in this Case
Petitioner Blanche Brown brought the negligence civil action against the US and
holds the GOVERNMENT (but not individuals) liable for the Negligence, Omissions
and Failures of VA Facility and Regional Network ADMINISTRATORS at Coatesville
VA Medical Center and VISN 4—which over decades, created the conditions that
fostered UNCORRECTED culture of Patient Abuse, threats, assaults, intimidation
and stalking against Petitioner (as well as other women beneficiaries and women
employees- and against other disabled veterans) by known (for decades) violent and
problem VA employees.
Petitioner, at all times relevant was a Permanently Disabled Veteran and Cardiac

Writ 7

Patient (having recently undergone emergency open-heart surgery) who received her
medical care from Coatesville VA Medical Center.
Defendant (through Facility Director, and Medical Center Law
Enforcement)—despite knowledge of the abuse, firearm threats, violence and
stalking— nonetheless FAILED to Keep Petitioner safe upon her arrival at her
scheduled Medical Appointment—despite known and foreseeable risks of harm.
Defendant Had Placed The Problem Violent Employee On Disciplinary
Leave Of Absence: because of his threats and patient abuse against Petitioner.
The violent employee was NOT supposed to be on VA Property—yet on
May 12, 2014 he WAS ALLOWED on the medical center campus at the SAME
time as Petitioner’s Scheduled Medical Appointment.
MOREOVER, her VA patient abuser “mysteriously” KNEW when and
where Petitioner would be on the VA Medical Center campus.
Apparently someone within the VA facility informed him about the Day, Date and
TIME and LOCATION of Ms Brown’s scheduled medical appointment.
**Immediatelv upon Ms Brown’s arrival, her VA Patient Abuser/Stalker drove up on
her with his car- as Ms Brown walked across the driveway—threatening her with his
car and blocking her path. He glared and gestured. He drove off—as the incident took
place in front of the Police Building (otherwise things would have been much worse).
The facility administrators knew that a month earlier, their violent employee had
threatened Plaintiff that IF SHE REPORTS his PATIENT ABUSE TO THE VA,
“There's Gonna Be Trouble”.
Also, Facility Administrators were aware that not only had their violent employee
made credible threats of gun violence (which he attempted to carry out) against this

Writ 8

Petitioner/Plaintiff (an already traumatized and permanently disabled cardiac patient)
and had accessed Petitioner’s protected Patient Information and threatened to post
it to FACEBOOK—, but Defendant ALSO knew that the violent patient-abusing VA
employee had a history of stalking and harassing women employees and women
beneficiaries assaulting patients (for more than a decade); physical altercations with
co-workers, and credible threats of violence against his supervisors, managers and
union reps.
What is more, Defendant knew that only 3 months earlier, the same violent VA
employee had ASSAULTED and THREATENED TO KILL a VA Registered Nurse in
her home. And that he was ILLEGALLY ARMED.
Defendant failed to adhere to 38 USC 901Mandate to Protect persons visiting
VA facilities; and failed to follow VA Security’s Policy (38 CFR 0730) to PREVENT
HARM by those persons under the VA’s control (known violent employees) and those
on Government property; And Defendant FAILED to CORRECT Known Dangerous
Conditions And Conduct that their experience knew posed threats of
foreseeable harm.
Further, Defendant failed to protect Plaintiff/Petitioner’s medical information- by
allowing someone (Plaintiff is unaware of who that person or persons were) to access
her patient information and inform her stalker patient abuser about her scheduled
May 12, 2014 appointment—where he intercepted and intimidated her.
E.

The District Court Proceedings

On April 4. 2017, Petitioner Blanche Brown filed a Federal Employer Negligence
Liability Suit at the PA Eastern District Federal Court against the United States as
Defendant- pursuant to the Federal Torts Claims Act (FTCA): 28 USC 1346 et seq).

Writ 9

However, unbeknownst to Petitioner/Plaintiff at the time, the District Court Clerk’s
office had INCORRECTLY DESIGNATED3 the FTCA Federal Employer Negligence
Complaint as a “CIVIL RIGHTS Other” claim pursuant to 42 USC 1983—against
Coatesville VA Medical Center and VISN 4.
In her Civil Action, Plaintiff again alerted Defendant about the violent VA
employee’s credible threats to harm VA supervisors, admin and union reps and
reiterated that abusive employees (felons) are TOO DANGEROUS TO FIRE.
On Aug 11. 2018 Defendant Filed a Rule 12 (c) Dismissal Motion for “failure to state
a claim . . .

And requested “in the alternative, a Clearer Statement”

The Court’s s improper designation (April 5, 2014) by the District Court clerk’s office
opened the door for Defendant (in it’s (Aug 11,, 2017) Rule 12 Dismissal Motion) to
invoke the FTCA’s “Discretionary Function” Exception (§2680a ) and “Scope of
Employment” (Westfall Act) Exception to the FTCA’s waiver of sovereign immunity.
Also, the improper Designation mislead the District COURT in it’s (Feb 6, 2018)
partial dismissal opinion: to misapprehend and mischaracterize Petitioner/Plaintiffs
complaint, not against the United States for Defendant’s Omissions and Failures ( at
non-discretionary and non-delegable duty ) to Protect and Prevent violence
and abuse and to REPORT abuse.
But instead, the District Court mischaracterized the FTCA Government
Employer Negligence Complaint as a misguided Civil Rights complaint (42
USC 1983) against Coatesville VA Medical Center and Regional Network (VISN4)as
(as government subdivisions) for administrative failing to train or correct and
terminate chronically violent employees.
3 Petitioner/Plaintiff first discovered the mistake in Feb, 2019 when she downloaded the case docket—following the
District Court’s Feb 21, 2019 Rule 41(b) Penalty Dismissal and final judgment

Writ 10

On Feb 6th and7th . 2018 the District Court Dismissed “all but 1 of Plaintiffs
claims (Dist Ct Docs 12, 13). Also, the District Court Denied Plaintiffs Motion to
Amend her complaint —in which she intended to clarify the relevant Restatement of
Torts related to Duty, Premises Negligence, 3rd Party harm, etc.; and to address
Defendant’s and the Court’s misapprehension of Plaintiffs negligence claims that
ADMINISTRATORS (not low-ranking patient abusing employees) had a duty to
Protect and prevent harm as part of their non-discretionary scope of employment.
The mischaracterization of Petitioner/Plaintiffs position and claims also gave rise to
the District Court’s assertions that the claims were also made against Plaintiffs
violent VA Patient Abusers in their individual capacity (when in fact they were not).
The District Court, in it’s “partial dismissal” decision of Feb 6, 2018 (Dist Ct Docs 12
and 13) and subsequent Orders (Docs 44, 66) REFUSED TO ALLOW Plaintiff to
Amend and Clarify her complaint
The District Court instead, advanced the Mischaracterization of the
complaint and INCORRECTLY STATED on page 1 that Plaintiffs
“claims arise out of the allegedly negligent acts and omissions of the Coatesville
VAMC administrators in not supervising and discharging a VA employee, who
was known to be chronically violent and who repeatedly harassed Plaintiff.
The District Court also INCORRECTLY wrote (page 12) in it’s Feb 6, 2018
Opinion:
“In short, Plaintiff incorrectly assumes that because JAB, Solomon, and AWB
were employed by Coatesville VA during the relevant time period, all of their
actions with respect to Plaintiff were done within the scope of their employment. ”
Actually, Petitioner/Plaintiffs claims arose from Defendant Federal Employer’s (VA
Secretary, Administrators, Facility Directors) FAILURES TO PROTECT her (and
other foreseeable victims) from a known pattern of VIOLENCE and other ABUSE by

Writ 11

FAILING to CORRECT known dangerous conditions and FAILING to control conduct
of career patient abusing employees under Defendant’s control.
NONE of Defendant’s DUTIES of CARE are DISCRETIONARY, but are Within the
SCOPE OF EMPLOYMENT of the VA Facility and regional Network Administrators.
On Feb 7, 2018 The District Court issued a Court Order dismissing all BUT ONE of
Plaintiff s claims—and preserving what the Court “interpreted” as “Invasion of
Privacy” claim (even though Plaintiff had NOT made such an argument or raised that
claim against her patient abusers )-but improperly implicating Plaintiffs violent
illegally armed patient abusers (ignoring the FTCA’s “Intentional Torts” Exception
and “Outside of Scope of Employment” exception )--whom she warned “ARE TOO
DANGEROUS TO FIRE.”
Nonetheless Defendant’s facility administrators told their violent employees
that Petitioner/Plaintiff is TRYING TO HAVE THEM FIRED and that she is THE
ONLY WITNESS who can TESTIFY AGAINST THEM in an internal
ADMINISTRATIVE HIPAA INVESTIGATION and that their JOB SECURITY is
contingent upon Plaintiffs TESTIMONY against them.
In the Courts Feb 6. 2018 OPINION, the District Court Acknowledged that
facility administrators were aware that defendant’s long-time problem violent
employees not only had a long history of assaulting disabled veterans/patients and
women employees—but also that one of the violent employees had recently
ASSAULTED AND THREATENED TO KILL A VA REGISTERED NURSE prior to
turning his violence against Petitioner/Plaintiff—whom he threatened with gun
violence if she dared report his patient abuse to his VA Employer.

Writ 12

The District Court also acknowledged that Petitioner/Plaintiff alerted Defendant to
their violent employee’s credible threats to harm his supervisors, managers and union
reps—and that he discharged his illegal firearms outside of Petitioner/Plaintiff s
bedroom window.
On Feb 22. 2018. Defendant’s violent patient abusing employee (Plaintiffs abuser)
made (yet another) pre-dawn visit to Plaintiff/Petitioner’s rural neighborhood and
(again) DISCHARGED HIS ILLEGAL FIREARM outside of her window.
On Feb 28. 2018 Petitioner/Plaintiff motioned/requested (Dist Ct Doc 16) the Court to
RESTRAIN and ENJOIN Defendant from inciting violence and intimidation against
her by their disgruntled and embattled Employees—unto whom Defendant transferred
the Court’s “Invasion of Privacy” liability and against whom Defendant launched an
agency INTERNAL HIPPA INVESTIGATION
Also on Feb 22. 2018 the Court DENIED (Dist Ct Doc 17) —the same day—Plaintiff s
Request to Restrain and Enjoin Defendant from inciting VIOLENCE against her by
their known violent employee.
On March 14. 2018 Plaintiff filed a Request For Reconsideration of the court’s Feb 62018 “partial” dismissal of Plaintiffs Complaint.
On March 20. 2018 The District Court DENIED Plaintiffs request for Telephone
Rule 16 Conference (which she requested in light of impending SEVERE SNOW
STORM forecasted for March 22nd)
On March 23, 2018 the District Court issued a Scheduling Order (Dist Ct Doc 28)
with Discovery deadlines of July 13, 2018 and Dispositive motions deadline of Aug 13.
On May 29. 2018 the District Court Denied Plaintiffs 2nd Motion for Leave to Amend
her complaint

Writ 13

In Late JUNE, 2018 Defendant sent Petitioner/Plaintiff an IMPROPER 11th hour
SUBPOENA Duces Tecum for a July 9th INTERVIEW (but under the pretext of
“deposition”)4 in the VA’s Internal Agency ADMINISTRATIVE (HIPAA)
INVESTIGATION—and identified Plaintiff as “THE ONLY WITNESS”. But the
Subpoena did not adhere to the Court’s Discovery Rules (FRCP26, 30, 34,37) with
respect to timing and reasonable alternatives. Moreover, the subpoena demanded
Protected Information which was already in the VA’s possession as well as information
that Petitioner/Plaintiff DID NOT HAVE.
The District Court Coached Defendant about when to respond to Plaintiffs Motion
to Quash the Subpoena. And the Court DENIED Plaintiffs Quash Motion in less than
24 hours.
The Court ALSO DENIED Plaintiffs multiple Motions and Requests for Protection
Orders and Requests to RESTRAIN and ENJOIN Defendant from instigating
(indirectly and directly) intimidation, threats and stalking by Coatesville VAMC’s
violent Patient abusers—who were targets of Defendant’s ADMINISTRATIVE
INVESTIGATION—which could cost them their jobs and pensions.
On July 9. 2018 Plaintiff attempted to drive to Philadelphia for the
“Deposition”—but turned around because of anxiety, heat and illness—and
lack of safety or protection
In July 16, 2018 The District Court issued an Order (Dist Ct Doc 63) in which the
court made sweeping Denials of all of Plaintiffs outstanding motions (for leave to

4 Defendant’s Scheduled “Encounter” Under The Guise Of “Deposition was deceptive, threatening and intimidating—
and meant to sabotage Plaintiffs FTCA complaints by dissuading or preventing her from further pursuit. The Court’s
having Ignored Plaintiffs concerns is the Moral equivalent of Ignoring COVID-19 dangers.!

Writ 14

amend her complaint, For Protective Order, For alternative to in-person interview
with defendant—and Denied motions that Petitioner/Plaintiff had not made.
On July 26. 2018 the District Court issued an Order (Dist Ct Doc 66) commanding
Plaintiff to make REASONABLE arrangements to attend defendant’s
“Deposition” (HIPAA Investigation Interview) within 30 days.
**The Court had repeatedly IGNORED and DISREGARDED Petitioner/Plaintiffs
legitimate concerns about PRE-EMPTIVE and RETALIATORY VIOLENCE by
Defendant’s embattled violent Patient Abusers (Plaintiffs abusers). The Court ALSO
ignored Plaintiffs REASONABLE REQUESTS for ALTERNATIVES to in-person
encounter (such as Phone Conference or interview CLOSER to Plaintiffs home (as
opposed to an hour and a half drive—alone- to Philadelphia during a heat wave)
On Aug 6. 2018 Petitioner/Plaintiff motioned the Court for PROTECTIVE ORDER
and requested ALTERNATIVE to in-person encounter with Defendant (in light of
foreseeable risk of harm)
On Aug 20. 2018 Defendant motioned the Court for a Rule 41 Penalty (involuntary)
Dismissal of Plaintiffs “claim”.
In Aug 2018 Plaintiff filed another RECUSAL MOTION
On February 21. 2019 The District Court GRANTED DEFENDANT’S Rule 41(b)
Penalty Involuntary Dismissal Motion (Dist Ct Docs 77,).
On Feb 21. 2019 the Court Issued an OPINION MEMORANDUM (Dist Ct Doc 76) in
the form of a blistering diatribe in defense of e Counsel’s dangerously reckless conduct
Also On Feb 21. 2019 (Dist Ct Doc 77) the District Court Ordered THAT Plaintiffs
MOTIONS FOR PROTECTIVE ORDER, Motion for Sanctions and 3rd Recusal motion
ARE DENIED

Writ 15

On March 25. 2019 the Court Issued an ORDER THAT PLAINTIFF'S (post­
judgment) MOTION FOR RECONSIDERATION (DOC. 82) IS DENIED.
On April 2. 2019 the Court Issued an ORDER THAT PLAINTIFFS MOTION FOR
RELIEF FROM JUDGMENT AND DENIAL OF RECONSIDERATION (DOC. 84) IS
DENIED
On Anril 30. 2019 the Court Issued ORDER THAT PLAINTIFFS SECOND RULE 60
MOTION (DOC. 86) IS DENIED.
Overt District Court Errors Compounding The Clerk’s Office Initial
Fundamental, but UNCORRECTED Error.
In the District Court’s April 21, 2019 Memorandum Opinion (Dist Ct Doc 76), the
District Court browbeat Petitioner/Plaintiff for having raised issues about Defense
Counsel’s dangerously reckless conduct.
The Court excoriated Petitioner/Plaintiff for having called Defendant for knowingly
placing her in harms way—foreseeable violence by their known troubled and violent
patient abusing employees WHOSE JOBS, Defendant asserted were threatened and
contingent on the “outcome” of Petitioner/Plaintiff s INTERVIEW in Defendant’s
agency internal ADMINISTRATIVE HIPAA INVESTIGATION (under PRETEXT of
“Deposition).
The District Court also lambasted Petitioner/Plaintiff for having requested recusal of
court staff.
MOREOVER, Throughout the District Court’s Feb 21, 2019 Opinion Memorandum
(Dist Ct Doc 76) the court conflated and misapplied 3rd Circuit Case law.
For example, the District Court improperly relies on 3rd cir. Hicks u Feeney to
justify its Improper Rule 41 penalty Involuntary dismissal- by premising its decision

Writ 16

on the court’s initial legal error:
That is to say, the Court Clerk’s April 5th , 2017 unchecked INCORRECT
DESIGNATION and Docketing of plaintiffs FTC complaint (instead) AS a 42 USC
1983 “Civil Right Case: other’Xsee april 5, 2017 docket coversheet: downloaded march
25, 2019)—had far-reaching negative implications for the adjudication process and
case outcomes.
United States District Court
Eastern District of Pennsylvania (Philadelphia)
CIVIL DOCKET FOR CASE #: 2:17-cv-015Sl-MSG
BROWN V. UNITED STATES el al
Assigned to: HONORABLE MITCHELL S. GOLDBERG
Cause: 42:1983 Civil Rights Act

Date Filed: 04/05/2017
Date Terminated: 02/21/2019
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

The Docket coversheet shows that the District Court Clerk Categorized, DESIGN A ED
and Docketed the complaint pursuant to “42 USC 1983 Civil Rights Act” against the
US and Subdivisions-EVEN THOUGH Petitioner/Plaintiff filed her Complaint as a
FEDERAL EMPLOYER Negligence Case pursuant to the Federal Torts Claims Act.
Nonetheless, the District Court subsequently treated the complaint as a 42 USC 1983
complaint and improperly applied 3rd Circuit Case Law. In the Court’s errant Feb 21,
2019 Penalty Dismissal Memorandum (Doc 76), the Court’s writer incorrectly refers
to Hicks v Feeney 3d Cir. 1988) as “Factually ANALAGOUS to this case at hand” —
when in fact there are NO parallels or similarities.. Hicks v Feeney is a 42 USC 1983
Individual-capacity civil rights lawsuit filed by an incarcerated detainee- against the
director of a hospital for involuntarily detaining him.
Additionally, in the District Court’s Feb 7, 2018 interlocutory Order/Opinion the
Court INCORRECTLY stated:
“Plaintiff brings this claim against the United States, as well as Coatesville VA
Medical Center, and administrators of the Region 4 Veterans Integrated Services

Writ 17
Network, including human resources staff, program managers, and policy
makers. ”
The District Court’s mis-statement appears to discredit and ridicule Petitioner/
Plaintiff but is ALSO consistent with the Court’s initial error of March 5, 2017- in
that the Court applied 42 USC 1983 Civil Rights Designation and Law to
Plaintiffs complaint asserting claims against individuals and the agency subdivisions
INSTEAD of properly Applying 28 USC 2679 to the negligent oversights and
omissions of Medical Center Administrators and VA regional network administrators
acting within the scope of their employment, who for decades failed to correct the
known PATIENT ABUSE problem.
The Court’s initial Legal Error opened the Door for Defendant to
improperly argue the FTCA’s Exceptions to its waiver of sovereign immunity.
Specifically, Defendant’s argued that the FTCA does not apply to individuals, but only
the Government; Defendant also improperly argued that Civil Rights violations are
not within the purview of the FTCA (although Petitioner’s civil action is against the
US for omissions and failures of Administrators to Provide SAFE environment,
PROTECT her from harm, PREVENT violence.
F.

The Appellate Court Proceedings

On May 1. 2019. Petitioner/Plaintiff filed a notice of appeal from the District Court’s
Final judgment and Interlocutory Orders.
On May 8, 2019 the Appeals Court issued a Briefing Schedule
On June 19th, 2020 This cause came to be considered on the record from the United States
District Court for the Eastern District of Pennsylvania and was submitted pursuant to Third
Circuit LAR 34.1

Writ 18

On July 30,2020 the 3rd Circuit Court of Appeals Affirmed the District Court’s judgment
On Sept 28,2020 Petitioner/Plaintiff Requested Rehearing En Banc
On October 6, 2020 the Court of Appeals Denied Petitioner/Appellant’s Request for Rehearing
The 3-judge Appeals Court panel did not address the district court’s initial
and fundamental reversible errors which include:
(1) Magistrate Actions Exceeding Statutory Authority pursuant to 28 USC §636)
(2) Defendant’s Abuse of Judicial Civil Processes of this civil action to carry out
Administrative Branch Internal Agency Investigation against problem employees
(3) Turning a Blind eve to Defendant’s overt Dangerous Discovery Abuses:
Placing Plaintiff in harms way by making her the scapegoat for VA violent
employees whom the VA set out to terminate
(4) Denial of Plaintiffs numerous request to Amend her FTCA Complaint
(pursuant to FRCP Rule 15 and 3d Circuit “Foman Factors”)—thereby denying
her opportunity to clarify her position about the Govt’ liability (Restatement 2nd
of Torts) for failures of VA Administration failure at non-Discretionary Duties to
PROTECT, PREVENT HARM ( SEE Heyl & Patterson Int'l, Inc. v. F.D. Rich
Housing of the Virgin Islands, Inc., 663 F.2d 419, 425 (3d Cir.1981)
(5) Disregarding US Supreme Court Holding in Liljeberg v. Health Services
Acquisition Corp. (1988) regarding RECUSAL Pursuant to 28 USC 455 (which is
NOT Discretionary when there is an “appearance” of bias)
(6) Reversible Procedural, Clerical and Administrative Errors that could have
been corrected early on --such as misclassification and Improper designation
(under 42 USC 1983- hence improper adjudication-of Plaintiff s FTCA
complaint.

Writ 19

REASONS WHY CERTIORARI SHOULD BE GRANTED
I.
REVIEW IS WARRANTED BECAUSE THE CIRCUITS HAVE NOT
ADDRESSED THE FAR-REACHING IMPLICATIONS FOR SECURITY AND
SAFETY FAILURES
•

In VA Medical Centers And Other Federal Facilities And

•
•

Unabated Preventable Violence Against And
Harm To Visitors, Beneficiaries And Employees On Federal Property

The Panel’s Decision Trivializes and even ignores Government inspectors and
accountability reports to congress and department of homeland security underscore
exceptional importance of these issues.
Of Import, The Government Accountability Office (GAO) Wrote to Department of
Homeland Security (DHS) and House Committee on Veterans Affairs. The GAOs
report stated that:
• VA cannot ensure that local physical security decisions are based on actual risk
are appropriate to protect the facility and are effective.
• The type of oversight VA lacks is required of all government agencies by the
Interagency Security Committee.
• "This could leave staff, patients, and visitors, as well as property, vulnerable to
unmitigated risks
II.
REVIEW IS WARRANTED BECAUSE THE 3-JUDGE APPEALS COURT
PANEL’S AFFIRMANCE CONFLICTS WITH THIS COURT’S DECISIONS
RELATED TO RULE 41(b) Penalty Involuntary Dismissal
The Appeals Court Affrimance Conflicts With The US Supreme Court’s Holding in
Nat’l Hockey League v. Metro. Hockey Club, Inc., (1976) in which US the SUPREME
COURT HELD that
Dismissal with prejudice is an “extreme” sanction. Nat’l Hockey League v.
Metro. Hockey Club, Inc., (1976) and That:

Writ 20
“dismissals with prejudice or defaults are drastic sanctions” that “must be a
sanction of last, not first, resort.” Poulis, 747 F.2d at 867, 869; see also Briscoe,
538 F.3d at 258; Emerson, 296 F.3d at 190
The Affirmance Of Unconstitutional Ruling (conflicting Rule 41(b)) Is Itself An
Offense Against The Constitution, as it ENDANGERS the rights and LIVES of
millions of veterans who receive services through the VA.
Moreover, the Appeals Court Panel’s Affirmance of the District Court’s
unconstitutional judgment Diminishes The Humanity Of Vulnerable Victims And
Ignores the visible Need To Protect Disabled Veterans; Seniors; Victims of Patient
Abuse and Preventable Violence—and other vulnerable groups and “Whistle-blower”
litigants— in further unjustifiable danger of violence or DEATH—(through
negligence or retaliation) —perpetuating the indifference and making certain groups
DISPOSABLE. And it NORMALIZES violence by Government Defendant employees
against vulnerable groups.
III.
Review Is Warranted BECAUSE THE OPINION BY THE 3-JUDGE PANEL
RULING CONFLICTS WITH THE 3rd CIRCUIT’S OWN STANDARD (Six
Poulis Factors) AND PRECEDENT REGARDING RULE 41(B) Penalty And
Involuntary Dismissal.
The District Court’s Penalty Dismissal exhibits abuse of discretion and disregard
for it’s own precedent and rules even though The 3rd Circuit Held that A District
Court Abuses Its Discretion if its Decisions to NOT draw the inferences in favor of
non-moving party rests upon a “Clearly erroneous finding of fact, an errant conclusion
of law or an improper application of law to fact “Meditz v City of Nework, (3d Cir 2011)
The Panel’s Affirmance Conflicts with 3rd Circuit’s Standard established in Poulis u.
State Farm Fire & Casualty Co., 747 F.2d 863 (3d Cir. 1984 in its application of “Six

Writ 21

Poulis Factors”) to FRCP 41 (b) Involuntary Dismissal
The 3rd Circuit Asserted:
“dismissals with prejudice or defaults are drastic sanctions” that “must he a
sanction of last, not first, resort.” Poulis, 747 F.2d at 867, 869; see also Briscoe,
538 F.3d at 258; Emerson, 296 F.3d at 190
The 3rd Circuit REQUIRES District Courts, when considering a Rule 41 Penalty
Dismissal motion (which the 3rd Circuit views as a measure of last resort) to correctly
apply the 6 -step process.

Those Factors Are:

(1) The extent of the party's personal responsibility;
(2) The prejudice to the adversary caused by the failure to meet scheduling orders
and respond to discovery;
(3) A history of dilatoriness;
4) Whether the conduct of the party or the attorney was willful or in bad faith;
(5) The effectiveness of sanctions other than dismissal, which entails an analysis
of alternative sanctions; and
(6) The meritoriousness of the claim or defense.” Poulis, 747 F.2d at 868.
Third Circuit has provided additional guidance to district courts by admonishing
that "no single Poulis factor is dispositive,"
However, in this instant case, The District Court never MENTIONED the Poulis
Factors in it’s Dismissal Ruling (SEE Dist Ct Case: 17-cv-1551 Docs 76, 77), much less
correctly applied them.
The Appeals Panel, however errantly submits that the District Court Correctly
Applied the “6 Poulis factors” established by the 3rd Circuit—but failed to
EXPLAIN HOW the district court’s decision comports with 3rd Circuit requirement.
Moreover, the Case Record does not show that Petitioner/Plaintiff acted in bad faith
or that Plaintiff has a history of dilatoriness or that Plaintiffs Refusal to cooperate

Writ 22
with Defendant’s dangerous “deposition” plan prejudiced Defendant—or that Plaintiff
is in any way responsible for the known danger willfully created by Defendant—which
prevented Plaintiffs participation in their “deposition”.
IV
REVIEW IS WARRANTED BECAUSE NONE OF THE CIRCUITS NOR THIS
COURT HAS ADDRESSED THE ISSUE OF LIFE THREATENING DANGER
AS A BARRIER TO A PLAINTIFFS ABILITY TO PROPERLY “PROSECUTE
HER CLAIMS” AND AVOID A RULE 41(B) PENALTY INVOLUNTARY
DISMISSAL
In this instant case, Defendant knew that Petitioner/Plaintiff (a traumatized
cardiac patient recovering from open heart surgery) was targeted by career patient
abusing employee(s) with known history of assaulting patients and co­
workers; assaulting women employees and stalking women patients, hand
Defendant was aware of the same violent VA employee’s violence against
Petitioner—which included threats, vandalism, stalking both on and off VA
property.5
The GAO’s dire warning and report was published arid sent to congress
TWO YEARS BEFORE a man OPENED FIRE in 2020 inside the Veterans
Affairs Medical Center in West Palm Beach, Florida
A YEAR AFTER 3 VA employees WERE SHOT TO DEATH in 2017 by a
5

This Risk Of Harm Or Death To Plaintiff Was As Great Or Greater THAN THE RISK TO A JUDGE, ATTORNEY or other
Officer of the Court of letting down their guard and then contracting and succumbing to COVID-19 during a Pandemic.
As the Record Shows, Plaintiffs concerns about her safety and life-threatening dangers posed by her VA Patient
Abusers (Defendant’s disgruntled and embattled employees) were valid and as real as—but more violent and even more
dangerous for Plaintiff than COVID-19.
YET IT IS DOUBTFUL THAT IF A Court employee or iudae DECIDED TO OPT-OUT for SAFETY REASONS that decision
would be evaluated under "Poulis Factors" BUT PENALIZED as "Dilatory", Intentional Delay, Bad Faith; Injurious to
Opposing Party—OR that their reasoning for choosing SAFETY and LIFE is without merit.

Writ 23
non-veteran visitor at a VA facility in California
3 YEARS AFTER a VA Psychologist WAS SHOT TO DEATH in El Paso
HOWEVER, the GAO’s report was issued to Congress:
• ONLY 1 MONTH BEFORE Defendant’s administrators at Coatesville VA
Medical Center weaponized the District Court’s Feb 7, 2018 “Invasion of
Privacy” Tort claim and transferred the liability to it’s Known Violent and
embattled Employee (Plaintiffs Patient Abuser and Stalker)—
• And A MONTH BEFORE the VA Patient-abusing employee RETURNED to
Plaintiffs home (Feb 22, 2018) and AGAIN DISCHARGED one of his many
illegal firearms outside of Plaintiff s window— to intimidate and dissuade her
from “Testifying” in response to Reports from DEFENSE COUNSEL and
GENERAL COUNSEL announcement that Plaintiff is TRYING TO GET THEM
FIRED and she is THE ONLY WITNESS in the INVESTIGATION that was
designed to TERMINATE 2 of Coatesville VAMC’s most notorious patient
abusers and problem employees
•

And ONLY 5 months BEFORE Defendant (late June 2018) attempted to Set
Petitioner up for what would have been a foreseeable VIOLENT ENCOUNTER
(pre-emptive or retaliatory violence) with her VA Patient Abusers when
Defendant unreasonable Demanded that Plaintiff attend a short-noticed July 7,
2018 INTERVIEW (TESTIMONY against her abusers) in the Agency’s Internal
ADMINISTRATIVE HIPAA INVESTIGATION (but under the pretext of a
Subpoena Duces Tecum and “Deposition” in Plaintiffs civil case).

Further, the GAO’s warning about Security and Safety issues at VA Facilities was
published and sent To Congress . . .

Writ 24

•

ONE YEAR AFTER, this Petitioner filed her civil action in which she
warned Defendant that her violent VA Patient Abusers ARE TOO
DANGEROUS TO FIRE

•

FOUR YEARS AFTER this Petitioner reported being encouraged by her VA
Medical team to attend her scheduled May 12, 2014 medical appointment, ONLY
TO BE STALKED AND THREATENED and Re-traumatized AT the VA
Medical Center by Coatesville VAMC’s known illegally and heavily armed
disgruntled employee with a long history of PATIENT ABUSE, Workplace
Violence; Demotions and stalking Women Veterans and women employees.

•

And 4 years AFTER the violent employee WAS PERMITTED TO Enter the VA
Property on MAY 12, 2014 to stalk and TERRORIZE Plaintiff during her
scheduled medical appointment.
•

4 YEARS AFTER the SAME KNOWN VIOLENT Coatesville VAMC
EMPLOYEE assaulted and THREATENED TO KILL a VA Nurse

•

6 YEARS AFTER the same long-time problem employee (Petitioner’s VA
patient abuser and stalker) at Coatesville VAMC ASSAULTED HIS CO­
WORKER (documented) and made credible threats to harm his supervisors and
co-workers and administrators who demoted him—and Union Reps whom he
believed did not support him.

•

11 YEARS AFTER a woman veteran and VA Employee Filed a Police Report
because the SAME Coatesville VAMC employee was harassing and STALKING
HER at work and at her home
V.

REVIEW IS WARRANTED BECAUSE NONE OF THE CIRCUITS, HAVE
ADDRESSED The issue of Separation of Powers in the Context of

Writ 25
Government Agencies of the Administrative Branch using the Judicial
process and judicial authority in an active Civil action as an adjunct
platform for conducting an Agency-based Internal Administrative (HIPAA)
Investigation.
Moreover, Defendant offered NO level of Protection for Petitioner/Plaintiff even
though Defendant intended to utilize her Witness Testimony for the Agency’s internal
investigation AND although Plaintiff was effectively a Victim/Witness (albeit
involuntarily and unwittingly) as Defined by HIPAA as well as by 18 USC 377, 34
USC 201411, 42 US 10607, 18 USC 2261. Petitioner was a Witness/Party , hence
qualified for witness/victim protection from her abusers.
The Victim and Witness Protection Act of 1982 Created A Federal Civil Cause Of
Action Authorizing A United States District Court To Enjoin Obstruction Of Justice
And To Restrain The "Harassment" Of Crime Victims And Witnesses . However, the
District Court turned a blind eye to Defendant’s overt misconduct and reckless
endangerment of Petitioner/Plaintiff s welfare—as a crime victim, domestic abuse
victim and a VA Health beneficiary/Patient.
CONCLUSION
Based on the foregoing, Petitioners respectfully submit that this Petition for Writ of
Certiorari should be granted. The Court may wish to consider summary reversal of the
decision of the Ninth Circuit Court of Appeals.
Dated: Feb 27, 2021
Respectfully Submitted,

Blanche Brown,
Petitioner

